Audit Report




OIG-08-029
GENERAL MANAGEMENT: Treasury Has Taken Action to
Improve Its Purchase Card Program (Corrective Action
Verification on OIG-04-034)
January 29, 2008




Office of
Inspector General
Department of the Treasury
Contents

Audit Report

  Background ........................................................................ …………………… 1

  Objective, Scope, and Methodology....................................... …………………… 3

  Corrective Actions Taken by the DO ............................................................... 3

Appendices

  Appendix 1:        Management Response .......................................................... 6
  Appendix 2:        Report Distribution................................................................. 7

Abbreviations

  DCFO               Deputy Chief Financial Officer
  DO                 Departmental Offices
  JAMES              Joint Audit Management Enterprise System
  OIG                Office of Inspector General
  OMB                Office of Management and Budget
  OPE                Office of the Procurement Executive
  TD                 Treasury Directive




                     GENERAL MANAGEMENT: Treasury Has Taken Action to Improve                        Page i
                     Its Purchase Card Program (OIG-08-029)
        This page intentionally left blank.




GENERAL MANAGEMENT: Treasury Has Taken Action to Improve   Page 2
Its Purchase Card Program (OIG-08-029)
                                                                                Audit
OIG
The Department of the Treasury
                                                                                Report
Office of Inspector General




                     January 29, 2008

                     Peter B. McCarthy
                     Assistant Secretary for Management and Chief Financial Officer

                     This report presents the results of our review of corrective actions
                     taken by Departmental Offices (DO) in response to the three
                     recommendations we made in our June 2004 report on the DO’s
                     purchase card program.1 These recommendations involve
                     emphasizing the responsibilities of bureau procurement managers,
                     assessing whether additional Departmental guidance is needed, and
                     requesting all bureaus to assess the adequacy of their policies,
                     procedures, and internal controls over their purchase card
                     programs. Between September 2004 and October 2005, DO closed
                     the recommendations in the Department of the Treasury’s Joint
                     Audit Management Enterprise System (JAMES). In closing the
                     recommendations in JAMES, DO indicated that it had implemented,
                     documented, and validated the corrective actions taken in response
                     to the recommendations.

                     We found that the corrective actions taken by DO adequately
                     responded to the recommendations. Additionally, the Department
                     plans to update Treasury Directive (TD) 76-04, “Government
                     Purchase Card Program,” to provide the official guidance to the
                     bureau management of purchase card programs.


Background
                     According to Office of Management and Budget (OMB) Circular
                     A-50, revised, audit follow-up is an integral part of good

1
 Summary Report on Weaknesses in Treasury Bureau Purchase Card Programs, OIG-04-034 (June 18,
2004)


                     GENERAL MANAGEMENT: Treasury Has Taken Action to Improve            Page 1
                     Its Purchase Card Program (OIG-08-029)
                        management and a shared responsibility of management and
                        auditors.2 Each agency, the circular states, should establish an
                        audit follow-up system to assure the prompt and proper resolution
                        and implementation of audit recommendations. Treasury requires
                        bureau staff to ensure that (1) audit recommendations are resolved
                        on a timely basis, (2) resolved audit recommendations (i.e., those
                        agreed to by bureau management) are promptly acted upon and
                        that progress with respect to proposed and ongoing corrective
                        actions is adequately monitored, and (3) statistical information and
                        other data are appropriately reported pursuant to all statutory and
                        regulatory requirements.3

                        The status of audit recommendations is tracked in JAMES, an
                        interactive system accessible to both the Treasury Office of
                        Inspector General (OIG) and bureau management. JAMES contains
                        tracking information on audit reports from their issuance through
                        completion of all actions related to the findings and
                        recommendations.

                        The Assistant Secretary for Management and Chief Financial
                        Officer is responsible for ensuring the proper resolution of audit
                        findings, recommendations, and implementation of corrective
                        actions. The Deputy Chief Financial Officer (DCFO) is responsible
                        for monitoring the status of resolution of audit findings and
                        recommendations, as well as the implementation of corrective
                        actions of both Treasury bureaus and DO.

                        According to the audit monitoring procedure of the DCFO’s office,
                        the DCFO’s office regularly reviews the status of the resolution of
                        audit findings and recommendations and the implementation of
                        corrective actions both by Treasury bureaus and DO and issues
                        quarterly reports. If the corrective action milestones are missed,
                        the DCFO’s office asks for justification, which, if provided, is
                        entered in JAMES. If not provided, the old dates stay the same,
                        and the bureau’s responsible officer is accountable for the missed
                        milestones. Before closing a recommendation, a staff member in
                        the DCFO’s office is to review supporting documentation regarding
                        implementation of the corrective action.

2
    OMB Circular A-50, revised, “Audit Follow-up” (Sep. 29, 1982).
3
    TD 40-03, “Treasury Audit Resolution, Follow-Up, and Closure” (Feb. 2, 2005).


                        GENERAL MANAGEMENT: Treasury Has Taken Action to Improve       Page 2
                        Its Purchase Card Program (OIG-08-029)
Objective, Scope, and Methodology
             The objective of this audit was to determine whether the
             Department had taken corrective actions responsive to the intent of
             our recommendations to improve controls and oversight over the
             Treasury bureau purchase card programs. This corrective action
             verification addresses the planned corrective actions associated
             with the three recommendations in our June 2004 report on the
             Treasury bureau purchase card programs.

             We met with staff members from the DCFO’s office to understand
             how recommendations in JAMES are monitored. We obtained
             supporting documents provided by the Office of the
             Procurement Executive (OPE) to review the implementation of
             the corrective actions. We queried JAMES to review the status
             of the recommendations.

             We conducted our review during August 2007 and September
             2007 at DO in Washington, D.C., in accordance with generally
             accepted government auditing standards.


Corrective Actions Taken by the DO
             Prior Recommendation 1. The Assistant Secretary for
             Management and Chief Financial Officer should formally
             reiterate and emphasize to all bureau procurement managers
             their responsibilities in properly administering their purchase
             card programs.

             In response to Recommendation 1, the Acting Chief Financial
             Officer sent a memorandum, dated August 4, 2004, to bureau
             heads to emphasize responsibilities associated with managing the
             purchase card program and the need for effective internal controls.
             The memorandum contained several attachments one of which
             listed all the responsibilities and activities of a highly effective
             purchase card program. We believe that the Department addressed
             the intent of our recommendation.




             GENERAL MANAGEMENT: Treasury Has Taken Action to Improve       Page 3
             Its Purchase Card Program (OIG-08-029)
                        Prior Recommendation 2. The Assistant Secretary for
                        Management and Chief Financial Officer should assess
                        whether additional Departmental guidance is needed to clarify
                        what constitutes improper card usage, the impropriety of split
                        purchases, the role of approving officials, and adequate
                        separation of duties.

                        In response to Recommendation 2, OPE developed a purchase card
                        management plan in accordance with OMB requirements.4 The plan
                        contains the management controls, policies, and procedures for the
                        proper use of the government purchase card. It specifies the roles
                        and responsibilities of the key players for oversight and
                        management, including agency or organization program
                        coordinators and approving officials, who have a role in assuring
                        proper card use, including identification of split purchases and
                        other improprieties. The plan was issued on July 10, 2006, and
                        distributed to Treasury bureaus.

                        We believe that DO addressed the intent of our recommendation.
                        We were also told that OPE plans to update TD 76-04 during fiscal
                        year 2008 to incorporate the purchase card management plan.

                        Prior Recommendation 3. The Assistant Secretary for
                        Management and Chief Financial Officer should request that
                        bureau heads assess the adequacy of their policies,
                        procedures, and internal controls over their respective
                        purchase card programs and implement changes as necessary
                        to ensure compliance with Departmental guidance.

                        In response to Recommendation 3, the Acting Chief Financial
                        Officer requested, in the August 4, 2004 memorandum discussed
                        earlier, bureau responses as to the adequacy of their policies,
                        procedures, and internal controls over their purchase card programs
                        and on cardholder compliance with policies and procedures. A
                        compliance checklist was provided to the bureaus to facilitate their
                        assessments of their purchase card programs. All bureaus
                        responded to the request and reported the results to OPE. Based on


4
    Chapter 2 of Appendix B to OMB Circular A-123


                        GENERAL MANAGEMENT: Treasury Has Taken Action to Improve      Page 4
                        Its Purchase Card Program (OIG-08-029)
our review of the responses, it appears that the bureaus performed
the assessments in accordance with the Department’s request. We
believe that DO addressed the intent of our recommendation.

Management Response

In a written response to our draft report, (Appendix 1), the
Assistant Secretary for Management and Chief Financial Officer
noted that we found the corrective actions taken by the
Department adequately addressed the recommendations.

                             *******

We would like to extend our appreciation for the cooperation and
courtesies extended to our staff during the review. If you have any
questions, please contact me at (202) 927-5400. The major
contributors to this report were Michael Maloney, Audit Director,
and Myung Han, Management Analyst.




Marla A. Freedman
Assistant Inspector General for Audit




GENERAL MANAGEMENT: Treasury Has Taken Action to Improve      Page 5
Its Purchase Card Program (OIG-08-029)
Appendix 1
Management Response




GENERAL MANAGEMENT: Treasury Has Taken Action to Improve   Page 6
Its Purchase Card Program (OIG-08-029)
Appendix 2
Report Distribution




Department of the Treasury

Assistant Secretary for Management and
   Chief Financial Officer
Deputy Chief Financial Officer
Office of the Procurement Executive
Office of Strategic Planning and Performance Management
Office of Accounting and Internal Control

Office of Management and Budget

OIG Budget Examiner




GENERAL MANAGEMENT: Treasury Has Taken Action to Improve   Page 7
Its Purchase Card Program (OIG-08-029)
